JOSHUA H. STEIN
ATTORNEY GENERAL

RYAN PARK
SOLICITOR GENERAL
(919) 716-6400
rpark@ncdoj.gov

August 26, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Berger v. North Carolina State Conference of the NAACP, No. 21-248

Dear Mr. Harris:
I write on behalf of the state respondents—the chair and members of the
North Carolina State Board of Elections, in their official capacities—to request an
extension of time to respond to the petition for a writ of certiorari in this case.
The response is currently due on September 22, 2021. The state respondents
respectfully request a 21-day extension of time, to and including October 13, 2021,
in which to file a brief in opposition. See S. Ct. R. 30.4.
Counsel for the petitioners have stated that they consent to this request.

Respectfully,
/s/ Ryan Y. Park
Ryan Y. Park
cc:

All counsel of record

POST OFFICE BOX 629, RALEIGH, NC 27602-0629

